*

COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklel egal bri efs. com

Legal Brieff S
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
HUONG L. TRAN and RICHARD W. HAZEN,
Petitioners,
v.
CITY OF HOLMES BEACH, FLORIDA;
CITY OFFICIALS in Official Capacity; FLORIDA
DEPARTMENT OF ENVIRONMENTAL PROTECTION ;
DEPARTMENT OFFICIALS in Official Capacity,
Respondents,
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8892 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of December, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.
A GENERAL MQTARY-State of Nebraska
ft|_
RENEE J.QOSS
My Ccxntn. Exp, September 5,2023

Notary Public

Affiant

39996

